IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

ROBERT MCMILLIAN,
Petitioner

v.

UNITED STATES OF AMERICA

Steven R. Kiersh
DC Bar #323329
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, D.C. 20015
(202) 347-0200
Attorney for Petitioner
Appointed pursuant to the
Criminal Justice Act
Member of the Bar of the
Supreme Court of the United States

QUESTION PRESENTED
I. Whether the opinion of the District of Columbia Court of Appeals
concerning the withholding of material Brady evidence is inconsistent with
opinions from other cases from the District of Columbia Court of Appeals,
another case from the highest court of California and from cases from this
Court

PARTIES TO THE PROCEEDING
1. Petitioner Robert McMillian: Robert McMillian is an individual and
resident of the District of Columbia. He was convicted before the Superior
Court of the District of Columbia and his conviction was affirmed by the
District of Columbia Court of Appeals. Petitioner is currently serving a
sentence at a United States Penitentiary.
2. United States of America: The United States prosecuted Petitioner in
the Superior Court of the District of Columbia.

TABLE OF CONTENTS

PAGE
Table of Authorities……………………………………………

ii

Opinions Below………………………………………………..

iii

Jurisdiction……………………………………………………..

iv

Constitutional and Statutory
Provisions………………………………………………………

v

Statement of the Case…………………………………………

vi

Reasons for Granting the
Petition……………………………………………………………

1

Conclusion…………………………………………………………

5

Certificate of Service……………………………………………..

6

TABLE OF AUTHORITIES
PAGE
CASES
Brady v. Maryland, 373 U.S. 83 (1963)…………………………….

1,5

McMillian v. United States, D.C. Superior Court, 12-CO1343, (2014)………………………………………………………

v

Giglio v. United. States, 405 U.S. 150 (1972)……………………

1

Kyles v. Whitney, 514 U.S. 419 (1995)……………………………

1

People v. The Superior Court of Tulare County, 163 Cal. App. 28
(2008)…………………………………………………………………

2

United States v. Bagley, 473 U.S.667 (1985)…………………….

1,3

United States v. Olsen, 737 F.3d 625 (9th Cir. 2013)…………….

4

Vaughan v. United States, 93 A.2d 1237 (D.C. 2014)…………...

2

UNITED STATES CONSTITUTION
Fifth Amendment to the United States Constitution……………..

1

Opinions Below
On February 24, 2021, the District of Columbia Court of Appeals
affirmed the denial of post-conviction relief filed on behalf of Petitioner.
(D.C. Court of Appeals Case No.: 2018-CO-000107 (A copy of the Opinion
is included in the attached Appendix Exhibit #1.).

i

JURISDICTION
Jurisdiction of the United States Supreme Court is invoked pursuant
to Supreme Court Rule 10 (b). This petition seeks review of an opinion from
the District of Columbia Court of Appeals which is the jurisdiction’s court of
last resort. The opinion of the District of Columbia Court of Appeals is in
conflict with other opinions of the District of Columbia Court of Appeals,
another opinion of the highest court of California and with decisions of this
Court. The affirmance of the denial of post-conviction relief was issued on
February 24, 2021.

ii

CONSTITUTIONAL AND STATUTORY PROVISIONS
Petitioner relies upon the Due Process Clause of the Fifth
Amendment to the United States Constitution in arguing that the District of
Columbia Court of Appeals erred in its ruling. Petitioner further asserts that
the opinion of the District of Columbia Court of Appeals is in contradiction
with other opinions of the District of Columbia Court of Appeals, this Court
and the California Court of Appeals.

iii

STATEMENT OF THE CASE
On October 18, 2007 defendant was convicted of second degree
murder while armed and weapons offenses following a trial by jury in the
Superior Court of the District of Columbia. He was sentenced to a period of
incarceration of 420 months (35 years). Defendant noted an appeal to the
District of Columbia Court of Appeals which affirmed the convictions in an
unpublished opinion. See McMillian v. United States, No. 08-CF-282 (July
6, 2012).
Petitioner moved for a New Trial pursuant to 23 D.C. Code Section
110 in the Superior Court of the District of Columbia. The Motion for New
Trial was denied by the trial court. The District of Columbia Court of
Appeals affirmed the denial of the Motion for New Trial on February 24,
2021. (Appendix Exhibit #1).
SUMMARY OF THE PROCEEDINGS
Petitioner’s direct appeal
On initial direct appeal the following issues were raised: (1) the
government improperly elicited fear testimony from four witnesses; (2) the
iv

trial court abused its discretion by precluding admission of a police report
containing statements of a non-testifying witness; and (3) there was
insufficient evidence to sustain defendant’s conviction.
Proceedings during the direct appeal, the second appeal and remand
instructions to the trial court
While the initial direct appeal was pending, defendant raised
concerns about his trial counsel’s performance. The Court of Appeals
permitted his counsel who had been his trial counsel to withdraw from
further representation. On June 9, 2010 defendant filed a Motion for New
Trial pursuant to 23 D.C. Code § 110. The trial court denied defendant’s
Motion for New Trial after the Court of Appeals affirmed the convictions on
direct appeal. The grounds argued in the Motion for New Trial before the
trial court were as follows: (1) trial counsel failed to provide effective
assistance of counsel, (2) the government’s failure to disclose
impeachment evidence regarding a key witness prior to trial, in violation of
Brady v. Maryland, 373 U.S. 83 (1963).
The trial court denied defendant’s motion without a hearing.
Defendant filed a renewed appeal. The Court of Appeals affirmed the trial
court’s denial of defendant’s motion related to the claim of ineffective
assistance of counsel but remanded the portion of the Order relating to the
v

Brady claim for a § 23-110 hearing. The Court of Appeals noted “At such a
hearing, the trial court can assess the record and transcripts of Ms. Harris’
testimony from that separate trial and hear testimony, as needed, from Ms.
Harris, as well as witnesses who can shed additional light on the
information regarding her multiple personalities.” McMillian v. United
States, No.: 12-CO-1343, 13 (2014).
Evidence withheld during the trial proceedings
On March 24, 2010 the United States disclosed to defendant the
following information related to material witness Cynthia Harris:
In the United States v. Johnel McQueen case, Cynthia Harris
was arrested on a material witness warrant prior to trial and
was incarcerated pending her testimony at the D.C. Jail.
During Ms. Harris’s incarceration, she made a statement to
medical personnel that she had multiple personalities and
identified one personality as a personality that gets her into
trouble. Ms. Harris subsequently received a full medical
evaluation while at the D.C. Jail and was diagnosed with
depression and Post Traumatic Stress Disorder. Subsequently,
Ms. Harris gave a statement to defense counsel in the case of
United States v. Johnel McQueen in which Ms. Harris stated
that she had four personalities and that one of the personalities
was a liar and it was that personality that observed the murder
at issue in the case of United States v. Johnel McQueen.
The letter concluded, “Please note that, while the government as an
entity was aware of this additional material at the time of the United States
vi

v. McMillian trial, undersigned counsel was not. Regardless, we believe
this information should have been disclosed and its potential use for crossexamination litigated before the trial court.
Initial ruling from the District of Columbia Court of Appeals
The Court of Appeals concluded that “trial counsel was unable to
attack Ms. Harris’ credibility on the basis that she had multiple
personalities, one of whom was a liar, because counsel did not learn of the
information until after trial.” Id, page 11. This determination must be read
within the context that Ms. Harris, during the course of a full medical
evaluation, was diagnosed with depression and post-traumatic stress
disorder.” Id.
The significance of Ms. Harris’s testimony was addressed by the
Court of Appeals. “Moreover, given that two of three government witnesses
in this case testified pursuant to plea agreements, we cannot say
conclusively that appellant failed to show prejudice on his Brady claim….”
Id. 12.

vii

The remand evidentiary hearing
The United States framed the issue as follows: “The case was
remanded to the Court from the Court of Appeals for a determination about
whether or not there was a reasonable probability of a different result had
the Government witness Cynthia Harris been impeached with statements
she made about her mental health in connection with a prosecution of an
unrelated case.” The government argued that “had Cynthia Harris been
impeached with the testimony from the John McQueen case, it
would not have made a difference in the outcome of the case.” Id. 6.
Defendant argued that Ms. Harris was a critical witness because “she
was the only one who claimed to identify Mr. McMillian by name,
recognizing his voice…her testimony was critical to the robbery charge and
they hung on that because she was the one who said she recognized his
voice….”
The trial remand court conducted a hearing and denied the Motion for
New Trial ruling,
Defendant has the burden of establishing that there is a
reasonable probability that the undisclosed evidence
would have altered the outcome at trial. Based upon the
record herein, Defense counsel had not met the burden
of establishing that there is a reasonable probability that
the use of the word “liar” would have altered the outcome
viii

at trial. Thus, Defendant’s convictions should be affirmed.
An appeal was noted and the District of Columbia Court of Appeals
again affirmed the conviction. It is worth noting that the District of Columbia
Court of Appeals concluded that “trial counsel was unable to attack Ms.
Harris’ credibility on the basis that she had multiple personalities, one of
whom was a liar, because counsel did not learn of the information until after
trial.” This determination must be read within the context that Ms. Harris,
during the course of a full medical evaluation, was diagnosed with
depression and post-traumatic stress disorder.
The significance of Ms. Harris’s testimony was addressed by the
Court of Appeals. “Moreover, given that two of three government witnesses
in this case testified pursuant to plea agreements, we cannot say
conclusively that appellant failed to show prejudice on his Brady claim….”

ix

REASONS FOR GRANTING THE PETITION
The Due Process Clause of the Constitution requires the United
States disclose to the defendant any evidence that “is material either to
guilt or to punishment, irrespective of the good faith or bad faith of the
prosecution.” Brady v. Maryland 373 U.S. 83, 87 (1963). This requirement
includes the prosecution’s duty to disclose to the defense evidence that is
useful to the defense in impeaching government witnesses, even if it is not
inherently exculpatory. Giglio v. United States 405 U.S. 150, 153 (1972).
It is well settled that the defendant is not under an obligation to
request specific exculpatory evidence. “Regardless of request, favorable
evidence is material, and constitutional error results from its suppression by
the government.” Kyles v. Whitley, 514 U.S. 419, 433 (1995), quoting
United States v. Bagley, 473 U.S. 667, 682. This constitutional
requirement mandates the United States to “volunteer exculpatory
evidence never requested, or requested in a general way.” Kyles, 514 U.S.
at 433 (Internal quotation marks omitted). The good faith or bad faith of the
government is irrelevant. “This means, naturally, that a prosecutor anxious
about tacking too close to the wind will disclose a favorable piece of
1

evidence.” Kyles, 514 U.S. at 439.
Vaughn v. United States, 93 A.3d 1237 (D.C. 2014) from the District
of Columbia Court of Appeals is instructive. Appellant was charged with
assaulting a guard at the D.C. Department of Corrections. The incident was
captured on videotape and although the quality of the tapes was not high
end, two correctional officers identified defendant as one of the assailants
resulting in a conviction.
Following the verdict, it was revealed that six months earlier one of
the identifying witnesses had filed a report against a different inmate
accusing him of an assault. An internal investigation of the event was
initiated and it was concluded that video footage of the incident did not
show the alleged inmate assault.
The Vaughn Court noted, “When the government possesses
favorable information subject to disclosure under Brady, it has an obligation
to disclose this information to the defense in a timely and complete
manner.” Id. 1256. In examining whether the suppressed material was
material, the Court concluded, “we consider whether there is a reasonable
2

probability that, had the evidence been disclosed to the defense, the result
of the proceeding would have been different., (quoting Bagley, 473 U.S. at
434) Id. 1262.
Ultimately the conviction in Vaughan was reversed. The evidence
was “powerfully impeaching…At the very least, defense counsel would
have had a firm foundation to press for much more leeway in crossexamining Officer Childs on the subject of his prior false reporting…instead
of hitting in the dark.” Id. 1263-264. The Court added, “As a general rule a
defendant is entitled to wide latitude in presenting evidence tending to
impeach the credibility of a witness, especially where [as here], that
evidence relates to key government witness.” Id. 1265. Internal quotations
and citations omitted.
The People v. the Superior Court of Tulare County, 162 Cal. App. 4th
28 (2008) involved a defendant who sought to discover a police officer’s
interview related to a witness’ statement concerning a shooting. The police
officer’s report could not be located and the officer who conducted the
interview had passed away. The prosecutor repeatedly represented that no
reports concerning the statement existed. However, during jury selection
the prosecutor learned that filed interviews were actually in possession of
3

the police department.
The California Court concluded, “it appropriate to impose a sanction
to ensure such untimely disclosure by law enforcement will not happen
again.” Id. 33. The Court explained the material nature of the suppressed
evidence. “In assessing materiality, we must keep in mind that an
incomplete response to a specific Brady request not only deprives the
defense of certain evidence, but also has the effect of representing to the
defense that the evidence does not exist. In reliance…the defense might
abandon lines of investigation….” Id. 371-72.
United States Circuit Judge Kozinski said it best. “Betray Brady, give
short shrift…and you will lose your ill-gotten conviction.” United States v.
Olsen, 737 F.3d 625, 633 (9th Cir. 2013). (dissenting from denial of petition
for rehearing en banc).

4

CONCLUSION
Petitioner was denied his constitutional right to a fair trial. His right to
due process of law was denied by the withholding of material and
exculpatory evidence in violation of the Fifth Amendment to the United
States Constitution and Brady v. Maryland. The material and withheld
information related to a key and essential witness for the prosecution. She
had a medical history that clearly would have been cross-examined by
defense counsel had counsel been made aware of her psychiatric
problems. The medical history was suppressed resulting in a deprivation of
due process.

Respectfully submitted
______/s/_________________
Steven R. Kiersh
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, D.C. 20015
(202) 347-0200

5

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and accurate copy of the foregoing
was mailed, postage prepaid, on this the 21st day of July, 2021 to the
Office of the Solicitor General, Department of Justice, Room 5614, 950
Pennsylvania Avenue, N.W., Washington, D.C. 20530.
______/s/____________
Steven R. Kiersh

6

